Memorandum from the Office of the Inspector General



March 2, 2009

Phillip L. Reynolds, LP 3A-C

FINAL REPORT – INSPECTION 2007-11474 – REVIEW OF TVA'S WORKERS'
COMPENSATION PROGRAM



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Michael A. Driver, Project Manager, at
(423) 785-4813 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at
(423) 785-4810. We appreciate the courtesy and cooperation received from your staff
during the inspection.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

MRP:BKA
Attachment
cc (Attachment):
      Peyton T. Hairston, Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      John E. Long, Jr., WT 7B-K
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      OIG File No. 2007-11474
                    Tennessee Valley Authority
                    Office of the Inspector General


Inspection Report


REVIEW OF TVA'S
WORKERS'
COMPENSATION
PROGRAM




Inspection Team                 Inspection 2007-11474
Michael A. Driver                        March 2, 2009
Michael R. Patty
Office of the Inspector General                                                           Inspection Report


SYNOPSIS
We conducted a review of the Tennessee Valley Authority's (TVA) Workers'
Compensation (WC) program to determine whether TVA's WC program was
(1) complying with applicable laws and regulations and (2) adequately supporting
TVA organizations. In summary, we reviewed 30 claims and found that TVA's
WC program was generally complying with applicable laws and regulations.
However, we did note the following when reviewing claim documentation:

•     Of the 30 claims, 12 were controverted,1 and for 2 of 12, the controversion
      letter was not submitted within 30 days after the notice of injury as required by
      the Code of Federal Regulations (CFR) Title 20, Part 10, Section 221
      (20 CFR 10.221).
•     One claim did not include the supervisor's signature on form CA-2. Each
      CA-1 and CA-2 form contains a field for the supervisor's signature.
•     There was one instance where the claim was not submitted to the Office of
      Workers' Compensation Programs (OWCP) within ten business days due to a
      supervisor not forwarding his/her completed portion of the form within the
      allotted eight days as required by CFR 10.110 and Benefits Practice 9 (BP9),
      respectively.

The prescribed services for TVA's WC department and assigned site personnel
go beyond the Federal Employees' Compensation Act (FECA) WC requirements.
However, when we interviewed selected managers, nurses, TVA site WC
contacts, and other staff at seven TVA site locations, we were told the WC
program support could be improved. Areas cited included:

•     Increasing the expertise in the WC department, including the medical
      knowledge of personnel;
•     Improving education and training for personnel responsible for facilitating the
      WC process at TVA sites;
•     Enhancing communications from the WC department; and
•     Addressing the abundance of hearing loss claims.

TVA management generally agreed with the inspection findings and has taken or
plans to take corrective actions to address the recommendations.


BACKGROUND
The FECA, as amended (5 U.S.C. 8101 et seq.), provides compensation for
disability and medical care for civilian federal employees injured while in the
performance of duty. FECA is administered by the United States Department of
1
    If an agency has reason to dispute an employee's WC claim, that agency may write a controversion letter
    to dispute said claim.
Inspection 2007-11474                                                                                Page 1
Office of the Inspector General                                                         Inspection Report


Labor (DOL) OWCP. The OWCP reviews claims and determines entitlement to
benefits under FECA and makes benefit payments to beneficiaries.2 TVA does
not make decisions on claims filed by its employees (i.e., TVA cannot accept or
deny a claim). OWCP receives reimbursement for WC costs from the agency
where the employee worked when the injury occurred. According to the WC
department, for fiscal year (FY) 2007, TVA paid OWCP approximately $56 million
for WC benefits and fees, which included (1) claims payments for recently
adjudicated cases, (2) disability compensation for those receiving scheduled
payments from TVA due to an ongoing disability or condition, and (3) a
5.6 percent DOL administrative charge.

Included in TVA's total costs of WC charges per year are hearing loss claims.
During our review, concerns were raised about the amount spent on hearing
loss. Hearing loss claims are filed when an employee believes his/her hearing
has been adversely affected by their employment at TVA. As seen in Figure 1
below, the costs of hearing loss claims represent a significant portion of TVA's
total WC costs.

Figure 1: Total WC Costs Compared to Hearing Loss Costs




The percentage of total claims attributed to hearing loss can be seen in Figure 2
on the following page. For FYs 2007 and 2008, hearing loss claims averaged
13.86 percent of WC costs, about 20.38 percent higher than the 10.81 percent
average for FYs 2004 through 2006.




2
    Benefits or compensation means the money OWCP pays to or on behalf of a beneficiary for lost wages, a
    loss of wage-earning capacity or a permanent physical impairment, as well as the money paid to
    beneficiaries for an employee's death.
Inspection 2007-11474                                                                             Page 2
O
Office of the Insp
                 pector Generall                                                       Inspection Report
                                                                                                  R


F
Figure 2: Percentage
          P        e of Hearing Loss Cla
                                       aims Comp
                                               pared to To
                                                         otal WC
          Charges
          C

              58
               8.1 Million 55
                            5.8 Million     55.1 Million 54.9 Million
                                                                    n   55.5 Million
    100.00%

     90.00%

     80.00%

     70.00%

     60.00%
                                                                                       Total WC
     50.00%
                                                                                       Hearing Claaims 
     40.00%

     30.00%

     20.00%

     10.00%
                  11.1%            10.8%       10.4%         13.6%        14.1%
      0.00%
                 FY2004            FY2005     FY2006        FY2007        FY2008


TVA's BP9, Workers' Compensati
T                         C              on, states: "TVA provvides claim and case
m
managemen    nt, and return to work services
                                        s          forr employeees who incur job-relate ed
in
 njuries." Thhese service   es include: (1) initial treatment
                                                     t          b TVA or contract
                                                                by          c        medical
providers or assistance    e to obtain other
                                       o       treatm
                                                    ment by the e physician of the
employee's choice; (2) helping em     mployees su    ubmit WC claims
                                                                c        corre
                                                                             ectly and obbtain
benefits throough OWCP     P; (3) monittoring the medical
                                                    m         recovery followwing job-rellated
 njuries; (4) facilitating
in            f            p
                           prompt   retu
                                       urn to work through co   ooperative working
                                                                             w
re
 elationships s with employee and physician;
                                       p            a (5) an aggressive
                                                    and         a             case
m
managemen    nt program to ensure timely,
                                       t         apprropriate bennefits and prevent
                                                                             p
unnecessary   y lost time. BP9 also states
                                        s        that TVA providdes these services
                                                                            s         to:

•     "Help em
             mployees file
                         e claims co
                                   orrectly and
                                              d obtain ben
                                                         nefits promp
                                                                    ptly.
•     Facilitate
               e recovery from
                          f    work injuries.
•     Prevent unnecessa
              u         ry time awa
                                  ay from worrk.
•     Prevent inappropria
                        ate benefits and unneccessary cossts.
•            quirements of FECA an
      Meet req                   nd other ap
                                           pplicable law
                                                       ws and regulations."

The CFRs and
T         a TVA BP  P9 prescribe
                               e specific re
                                           equirementts pertaining to the wo
                                                                           ork
in
 njury manag
           gement pro
                    ocess.

CFR Requirrements
C
D
Different sec
            ctions of CF
                       FR, Title 200, Part 10, prescribe
                                               p         sp
                                                          pecific requ
                                                                     uirements th
                                                                                hat
th
 he employe er must adhhere to in re
                                   egard to its WC prograam. This inccludes:

In
 nspection 2007
              7-11474                                                                             P
                                                                                                  Page 3
Office of the Inspector General                                                           Inspection Report


•     Filling out the employer portion of form CA-13 or CA-24 and submitting it to
      OWCP within ten working days of receipt of injury or disease notice from the
      employee. The employer must also complete the Receipt of Notice and give
      it to the employee along with copies of forms CA-1 or CA-2 (Section 110).
•     Providing form CA-75 to an employee who is receiving continuation of pay
      (COP)6 and is filing an initial claim for continuing compensation. This must be
      done by the thirtieth day of the COP period. Upon receipt of a CA-7 from the
      employee, the employer completes the appropriate employer sections and no
      more than five working days after receipt, forwards the completed CA-7 and
      any accompanying medical report to OWCP (Section 111).
•     Providing another CA-7 if the employee claims continuing compensation due
      to disability for longer than the original period covered by the first CA-7. The
      employer must submit the CA-7 and medical information to OWCP within five
      business days of receipt from the employee (Section 112).
•     Notifying OWCP and submitting form CA-67 within ten working days if an
      employee dies because of a work-related accident (Section 113).
•     Controverting OWCP claims. The employer must submit a statement
      detailing why it disagrees with the employee and provide evidence to support
      their position. This must be submitted within 30 calendar days from the notice
      of injury/illness (Section 117).

BP9 Requirements
BP9 states: "All major TVA plants and organizations should have an employee
designated and trained to assist injured employees in processing workers'
compensation claims." The supervisor/management designee is responsible for:

•     Ensuring the employee obtains prompt medical care when needed and
      accompanying the employee to obtain treatment.8
•     Notifying the physician that light-duty work will be made available, if
      necessary, to prevent work stoppage or hasten return to work.
•     Ensuring the employee is assisted in completion of proper injury or illness
      reports (i.e., CA-1 for traumatic injury and CA-2 for occupational illness).
•     Completing the supervisor's portion of CA-1 and CA-2 and submitting it to the
      WC department within eight working days of receipt from the employee.
•     Ensuring that all work or illness claims are investigated to obtain an objective,
      factual record for use in improving safety, and managing OWCP claims.

3
    Form CA-1 – Federal Employee's Notice of Traumatic Injury and Claim for Continuation of
    Pay/Compensation.
4
    Form CA-2 – Notice of Occupational Disease and Claim for Compensation.
5
    Form CA-7 – Claim for Compensation Due to Traumatic Injury or Occupational Disease.
6
    COP – FECA provides that the employer must continue the employee's pay during any period of resulting
    disability, up to a maximum of 45 calendar days. The employer, not OWCP, pays COP.
7
    Form CA-6 – Official Superior's Report of Employee's Death.
8
    The supervisor/management designee will accompany the employee to a medical care facility if the injury
    requires immediate medical attention.
Inspection 2007-11474                                                                               Page 4
Office of the Inspector General                                       Inspection Report


•   Contacting TVA'S WC department immediately if an employee stops work or
    does not return to work following a work injury to initiate the case
    management process.
•   Coordinating and identifying light-duty work and preparing a description of the
    work in cooperation with the return-to-work coordinator from TVA's WC
    department.

TVA's WC department's return-to-work coordinator provides case management
services, including monitoring medical recovery and obtaining and expediting
medical approvals for the employee's return to work. In addition, according to
BP9, TVA's WC department also plans and ensures implementation of TVA's
agency-wide WC program, including (1) providing nurse case management
services as necessary for an effective return-to-work program, (2) maintaining
data and providing statistical reports and information, (3) providing regulatory and
procedural information assistance and training for line organizations,
(4) responding to and resolving claim and program inquiries and issues, and
(5) serving as liaison with OWCP.


OBJECTIVE, SCOPE, AND METHODOLOGY
The objectives of our review were to determine whether TVA's WC program
(1) was complying with applicable laws and regulations and (2) was adequately
supporting TVA organizations. To achieve our objective, we:

•   Reviewed applicable federal laws and regulations and TVA policies and
    procedures pertaining to TVA's WC program to determine program and
    control requirements.
•   Interviewed key TVA personnel and performed a walkdown of TVA's OWCP
    processes and procedures to (1) determine if prescribed processes and
    procedures were being followed and (2) identify key control activities. To
    facilitate our review of the program, we prepared flowcharts of the TVA
    OWCP claims process, which included noting key control activities.
•   Selected and reviewed a random sample of 30 from 227 TVA OWCP claims
    that were originated in FY 2007 to determine whether they were reviewed and
    processed in accordance with policies and procedures.
•   Interviewed key personnel at TVA sites to identify any perceived support
    opportunities or needs.

This inspection was conducted in accordance with the "Quality Standards for
Inspections."




Inspection 2007-11474                                                           Page 5
Office of the Inspector General                                       Inspection Report




FINDINGS
TVA GENERALLY COMPLIES WITH APPLICABLE LAWS AND
REGULATIONS
Our review of 30 randomly selected OWCP cases found that TVA was generally
complying with applicable laws, regulations, and TVA policies. However, we also
found (1) for 2 of 12 controverted claims we reviewed, the controversion letters
were not submitted within 30 days after the notice of injury; (2) there was one
instance where a supervisor's signature was missing from a form CA-2; and
(3) there was one instance where the claim was not submitted to OWCP within
ten business days due to a supervisor not forwarding his/her completed portion
of the form within the allotted eight days. In summary, based on our review of
the case files, copies of completed forms, other supporting documentation, and
interviews, we found:

•   The employee filed the appropriate form CA-1 for a traumatic injury or CA-2
    for an occupational illness in accordance with 20 CFR 10.110.
•   There was one instance where the supervisor did not submit the employer's
    portion of a CA-2 within eight working days of receipt as required by BP9.
    Additionally, this caused TVA's WC department to not submit the CA-2 within
    ten working days as required by 20 CFR 10.110.
•   TVA's WC department submitted 10 of the 12 controversion letters (1) with
    the notice of traumatic injury or death or (2) within 30 calendar days from the
    date notice of occupational disease or death was received from the claimant,
    as required by 20 CFR 10.117.
     With the exception of one supervisor's signature missing from one CA-2,
      the OWCP-required forms were filled out completely with appropriate
      information and signatures. The CA-1 included such information as
      (1) employee data and (2) descriptions of the injury including place, date,
      time, cause, and nature. The supervisor's section of a CA-1 required the
      answers to different questions, including:
          Was employee injured in performance of duty?
          Was injury caused by employee's willful misconduct, intoxication, or
           intent to injure self or another?
          Was injury caused by a third party?
          Does your knowledge of the facts about this injury agree with
           statements of the employee and/or witnesses?
     Information on a CA-2 included (1) employee data and (2) claim
      information such as nature of disease or illness. The employer's section
      required information on medical care received and the employee's
      reporting of the condition.

Inspection 2007-11474                                                           Page 6
Office of the Inspector General                                         Inspection Report


For 30 of the claims we reviewed, we found the cases had been adjudicated and
handled in such a manner that a CA-7 requesting COP was not necessary.

TVA WORKERS' COMPENSATION PROGRAM SUPPORT COULD
BE IMPROVED

We found that in addition to performing the legal requirements laid out in the
CFR, TVA's WC department was performing the roles specified in BP9, which go
beyond the legal requirements in certain respects. Specifically, the WC
department:

•   Provided a nurse case manager.
•   Maintained data and provided statistical reports and information.
•   Provided regulatory and procedural information and training necessary to
    effectively manage work injury claims. While we found training was provided,
    according to site personnel, it has been provided on a sporadic and
    inconsistent basis.

However, opportunities exist to improve support at TVA facilities. When we
interviewed selected managers, nurses, site WC contacts, and other staff at
seven TVA site locations, we were told the WC program support could be
improved in certain areas. Specifically, interviewees shared with us the following
similar concerns:

•   The level of the WC department expertise needs improvement.
     According to those interviewed, there was turnover in the WC department
      due to retirements, and the new employees are not as knowledgeable
      about WC and OWCP, which results in confusion in the WC process.
     In addition, many nurses stated there was a significant lack of medical
      knowledge within the WC department, which unfairly put much of the
      burden of case management on them. This includes setting up
      appointments and performing follow-up to ensure timely return to work.
•   There is a lack of education and training provided to individuals responsible
    for facilitating the WC process at the sites.
     Interviewees stated it has been a number of years since they have had
      on-site training.
•   There is a perceived lack of communication from the WC department.
     Many interviewees expressed concern that once the paperwork was
      submitted, there was no communication or follow-up until the OWCP
      decision. Additionally, some plant managers stated they did not receive
      adequate reports regarding claims filed and charges incurred.
•   There is an abundance of hearing loss claims that need to be addressed.


Inspection 2007-11474                                                             Page 7
Office of the Inspector General                                      Inspection Report


     Many interviewees stated there is an excessive amount of hearing loss
      claims being submitted. Furthermore, they expressed concern that
      employees view hearing loss awards as an entitlement and a "lottery" to
      be won.

We also found that TVA's Office of the General Counsel (OGC) is not integrated
into the WC process. {REDACTED}


RECOMMENDATIONS
We recommend that the Vice President (VP) of Human Resources (HR):

•   Reassess WC site needs to identify support improvement opportunities,
    including the need for (1) training updates which should address the issues
    noted when reviewing the claims and (2) OGC's input on all controversion
    letters.

Management's Response – The VP, HR, provided comments on a draft of this
report. The VP, HR, agreed to implement our recommendations regarding:

•   Updating training to address the issues noted when reviewing the claims.
•   The need for OGC's input on all controversion letters.

In response to our recommendations, management plans to (1) review and
update training modules to ensure content is accurate with respect to employee
rights identified under FECA, timelines associated with filing claims and
controversions, and roles and responsibilities for all involved in the claims
process; (2) conduct training sessions for managers, supervisors, compensation
contacts, employees, and organizations in FY 2009; (3) reach out, via a letter
from the WC department, to each organization's executive informing them of
available training and requesting their assistance in extending this training to
their management teams; and (4) update training modules to remind supervisors/
managers that OGC may be a resource to them when controverting a claim.

(The complete text of the comments provided by the VP, HR, is provided in the
Appendix.)

Auditor's Comments – We concur with TVA management's actions or planned
actions with regard to updating the training manuals, providing training sessions,
and informing organizations of training opportunities and requesting their
assistance in extending training to their management teams.
To address our recommendation that WC reassess site needs to identify support
opportunities, including the need for OGC's input on all controversion letters,
management plans to update the training modules to remind supervisors/
managers that OGC may be a resource to them when controverting a claim.
While we agree with this action, we believe requiring OGC's input on all
controverted claims would strengthen the claims process.
Inspection 2007-11474                                                          Page 8
APPENDIX
Page 1 of 1
